Report No. DODIG-2013-077                      April 30, 2013




   The Navy Commercial Bill Pay Office, in Naples, Italy,
    Needs to Identify and Report Improper Payments
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ASN (FM&C) Assistant Secretary of the Navy (Financial Management and Comptroller)
BAM        Business Activity Monitoring
CBPO       Commercial Bill Pay Office
CNIC       Commander, Navy Installations Command
DFAS       Defense Finance and Accounting Service
DoD FMR    DoD Financial Management Regulation
IPERA      Public Law 111-204, “Improper Payments Elimination and Recovery Act
            of 2010,” July 22, 2010
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500



                                                                            April 30, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                  (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DOD
               NAVAL INSPECTOR GENERAL
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                  SERVICE

SUBJECT: The Navy Commercial Bill Pay Office, in Naples, Italy, Needs to Identify
and Report Improper Payments (Report No. DODIG-2013-077)

We are providing this report for your review and comment. The Naples Commercial Bill
Pay Office did not comply with the requirements of the Improper Payments Elimination
and Recovery Act and the implementing DoD Regulation. The Naples Commercial Bill
Pay Office did not perform reviews to identify and report improper payments from
the 18,688 payments, valued at approximately $712.7 million, processed through the One
Pay system from July I, 2011 through June 30, 2012.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The
Assistant Secretary of the Navy (Financial Management and Comptroller) and the
Director of Operations, Defense Finance and Accounting Service, did not provide
comments to the draft report. Therefore, we request comments on those
recommendations by May 30, 2013.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a Microsoft Word (.doc) file and a .pdf file containing your comments to
audclev@dod ig.mil. Comments provided to the final report must be marked and portion-
marked, as appropriate, in accordance with DoD Manual 5200.01. Copies of
management comments must contain the actual signature of the authorizing official. We
are unable to accept the /Signed/symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me
at (703) 601-5945 (DSN 664-5945).




                                             LorinT. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2013-077 (Project No. D2012-D000DE-0198.000)              April 30, 2013

               Results in Brief: The Navy Commercial Bill
               Pay Office in Naples, Italy, Needs to Identify
               and Report Improper Payments

What We Did                                             What We Recommend
The objective of the audit was to determine             We recommend that the Assistant Secretary of
whether improper payments processed through             the Navy (Financial Management and
the One Pay system at Navy activities were              Comptroller):
identified and reported.                                    • update guidance to clarify which
                                                               organizations, offices, and personnel are
What We Found                                                  responsible for processing payments in
The Naples Commercial Bill Pay Office did not                  One Pay;
perform a review to identify or report improper             • develop procedures for improper
payments from any of the 18,688 payments,                      payment identification and reporting;
valued at $712.7 million, processed through the             • establish roles and responsibilities with
One Pay system from July 1, 2011 to                            the Director Defense Finance and
June 30, 2012. In addition, the Naples                         Accounting Service Operations for
Commercial Bill Pay Office did not use the                     access to and the review of potential
available automated tool to assist in identifying              improper payments; and
potential improper payments. This occurred                  • initiate review of improper payments
because the Assistant Secretary of the Navy                    identified by the Business Activity
(Financial Management and Comptroller) did                     Monitoring tool since 2009 to identify
not clearly establish which organizations,                     additional improper payments.
offices, and personnel were responsible for
identifying and reporting improper payments at          Management Comments
this unique payment-processing location.                Required
As a result, the Navy and DoD understated the           Management comments to the report were
amount of improper payments reported. From a            unofficial, which could not be considered or
nonstatistical review of 25 payments valued             included in the final report. We request that the
at $2.5 million, we identified five improper            Navy and the Defense Finance and Accounting
payments, valued at $158,602 that the Naples            Service provide official comments to all the
Commercial Bill Pay Office neither identified           recommendations by May 30, 2013. Please see
nor reported. Therefore, Navy and DoD                   the recommendations table on the back of this
management did not have an accurate reporting           page.
of the improper payments made through the One
Pay system.




                                                    i
Report No. DODIG-2013-077 (Project No. D2012-D000DE-0198.000)   April 30, 2013

Recommendations Table

         Management                    Recommendations     No Additional Comments
                                      Requiring Comment          Required
Assistant Secretary of the Navy   1, 2, 3, and 4
(Financial Management and
Comptroller)
Director, Defense Finance and     3
Accounting Service Operations

Please provide comments by May 30, 2013.




                                           ii
Table of Contents

Introduction                                                                    1

      Objective                                                                 1
      Background                                                                1
      Review of Internal Controls                                               2

Finding. Improper Payments Were Not Identified and Reported                     3

      Procedures Needed to Identify and Report Improper Payments                3
      Responsibility for Identifying and Reporting Improper Payments Needs to
        Be Established                                                          4
      Impact of Noncompliance With Improper Payment Reporting Requirements      4
      Recommendations                                                           6
      Management Comments Required                                              6

Appendix. Scope and Methodology                                                 7
     Use of Computer-Processed Data                                             8
     Prior Coverage                                                             8
Introduction
Objective
The objective of the audit was to determine whether improper payments processed
through the One Pay system at Navy activities were identified and reported. Specifically,
we reviewed post-payment controls and reporting processes at the Naples CBPO because
it was the only Navy activity that manually processed payments directly through One
Pay. See the Appendix for a discussion of the scope and methodology related to the audit
objective.

Background
The Department of the Navy (Navy) established the Commercial Bill Pay Offices
(CBPO) in FY 1996 to streamline fiscal responsibility and functions. In FY 2005, Navy
continued streamlining operations by combining the Naples and Sigonella, Italy, CBPOs.
The Navy continued to regionalize its CBPOs in FY 2006–2009, with the merger and
absorption of workload from the disbursing offices in London, United Kingdom;
Keflavik, Iceland; Souda Bay, Greece; Rota, Spain; Djibouti; and Bahrain. After these
offices were absorbed, they became satellite offices to the Naples CBPO. The Naples
CBPO reports to Commander, Navy Installations Command (CNIC) and receives
financial management guidance from the Assistant Secretary of the Navy (Financial
Management and Comptroller) (ASN [FM&C]).

The Naples CBPO provides disbursing support for contract payments for Navy Region
Europe, Africa, Southwest Asia. This region includes Naval Station Rota (Spain), Navy
Support Activities Sigonella (Italy), Souda Bay (Greece), and Bahrain; Camp Lemonnier,
Djibouti; and Naval ships in the region. The offices submit payment packages to the
Naples CBPO for payment. The Naples CBPO personnel process the payments in One
Pay after reviewing the payment packages for completeness and accuracy.

One Pay was designed to create payment entitlements in accordance with the Prompt Pay
Act, recognize and manage applicable discounts or deductions, and compute and apply
interest when necessary. Entitlements are created when invoices are put into One Pay
through manual or automated processes. The Naples CBPO was unique because it was
the only Navy activity that manually processed payments directly through One Pay. The
Naples CBPO processes approximately 80 percent of its payment transactions through
One Pay. From July 1, 2011, through June 30, 2012, Naples CBPO processed
18,688 payments, valued at approximately $712.7 million.

All other Navy activities that certify vendor payments provide invoice packages to the
Defense Finance and Accounting Service (DFAS) for entry and processing through One
Pay. DFAS personnel perform reviews for improper payments. One of the tools DFAS
used to identify potential improper payments was the Business Activity
Monitoring (BAM) tool. The BAM tool used system logic to detect potential improper
payments. DFAS personnel reviewed the potential improper payments identified by


                                            1
BAM and the corresponding supporting documentation to determine if the payment was
proper or improper. The Naples CBPO personnel entered invoice data into One Pay on
behalf of Navy Region Europe, Africa, Southwest Asia Activities. According to the DoD
Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR), volume
4, chapter 14, “Improper Payments,” the Navy was responsible for performing reviews to
identify and for reporting improper payments.

Improper Payments Elimination and Recovery Act of 2010
On July 22, 2010, the President signed Public Law 111-204, “Improper Payments
Elimination and Recovery Act of 2010,” (IPERA) to prevent the loss of billions of
taxpayer dollars to improper payments. IPERA defines an improper payment as any
payment that “should not have been made or that was made in an incorrect amount
(including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements.” This includes payment for an
ineligible good or service, duplicate payments, payment for a good or service not
received, and payment that does not account for applied discounts.

DoD Financial Management Regulation
DoD FMR volume 4, chapter 14, establishes, DoD policy for compliance with IPERA.
The DoD FMR defines “erroneous payment” as an improper payment. The DoD FMR
also requires DoD Components to report improper payment data annually. Some
examples of improper payment categories are payments made with insufficient
documentation; errors made by the Federal agency inputting, classifying, or processing
applications or payments; and errors due to inaccurate invoices.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls providing reasonable assurance programs are operating as intended and
to evaluate the effectiveness of the controls. We identified internal control weaknesses at
the Naples CBPO. The ASN (FM&C) did not establish which organizations, offices, and
personnel were responsible for compliance with improper payment reporting
requirements at the Naples CBPO. In addition, ASN (FM&C) and CNIC did not have
procedures for identifying and reporting improper payments and for using improper-
payment-identification tools. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Navy.




                                             2
Finding. Improper Payments Were Not Identified
and Reported
The Naples CBPO did not perform reviews to identify and report improper payments
from any of the 18,688 payments, valued at $712.7 million, processed through the One
Pay system from July 1, 2011 through June 30, 2012. The Naples CBPO did not do so
because the ASN (FM&C) did not clearly establish which organizations, offices, and
personnel were responsible for compliance with IPERA and DoD FMR improper-
payment reporting requirements. In addition, the ASN (FM&C) and CNIC incorrectly
interpreted who was responsible for identifying and reporting improper payments at the
Naples CBPO. As a result, the Navy and DoD understated the number of improper
payments reported. From a nonstatistical sample of 25 payments, valued at approximately
$2.5 million, we identified 5 payments, valued at $158,602, that were not identified or
reported as improper. Furthermore, Navy and DoD management lacked visibility of the
potential improper payments made through the One Pay system.

Procedures Needed to Identify and Report
Improper Payments
The Naples CBPO did not have procedures to review, identify, and report improper
payments. The Naples CBPO processed 18,688 payments, valued at $712.7 million,
through the One Pay system from July 1, 2011 through June 30, 2012, but in that same
time period, it did not identify or report any improper payments. In addition, the Navy
did not perform risk assessments or post-payment reviews for the payments processed at
this location. The DoD FMR volume 4, chapter 14 requires the Navy to perform risk
assessments, perform post-payment reviews, and report improper payment data annually
for payments processed by Navy personnel in One Pay. IPERA requires DoD Activities
to report on what actions the Activity is taking to reduce improper payments. Identifying
and reporting improper payments as required by the IPERA and DoD FMR is intended to
reduce improper payments and establish and maintain sufficient internal controls,
including a control environment that effectively prevents improper payments. In
addition, an improved control environment will allow the Naples CBPO to promptly
identify, report, and recover improper payments.

Although the Naples CBPO stated its standard operating procedures are to review
payments prior to queuing them for release, it did not have standard operating procedures
                                    for identifying and reporting improper payments.
   The Naples CBPO did not          Naples CBPO personnel stated they randomly reviewed
    have standard operating         paid  invoices and supporting documentation for
   procedures for identifying       duplicate  payments and other errors. Although the
    and reporting improper          Naples CBPO had procedures for reviewing invoice
           payments.                packages both before and after they were paid, the
                                    procedures were not designed to identify and report
                                    improper payments, as required by IPERA and the
DoD FMR. For example, when payments were returned by the vendor or rejected by the
receiving financial institution, the Naples CBPO standard operating procedures instructed


                                            3
personnel to record the return in the Collection Voucher Control Log 1. The Naples
CBPO did not determine whether the returned payments should be classified as improper
payments; therefore, it did not report any improper payments or determine the cause of
the improper payments.

In addition, the Naples CBPO did not use an available automated improper payment
detection tool to assist in identifying potential improper payments processed through One
Pay. DFAS used BAM, an automated improper-payment detection tool, for all payments
processed through One Pay including those processed at the Naples CBPO. Although
BAM identified over 2,000 payments as potential improper payments between
July 1, 2011 and June 30, 2012, neither DFAS nor the Naples CBPO reviewed them. By
using the BAM tool, the Naples CBPO could improve the efficiency and effectiveness of
identifying improper payments.

Responsibility for Identifying and Reporting Improper
Payments Needs to Be Established
The ASN (FM&C) did not establish which organizations, offices, and personnel were
responsible for identifying and reporting improper payments. The ASN (FM&C)
provided guidance in 2003 that was not updated to include IPERA and DoD FMR
    ASN (FM&C) and         reporting requirements and was unclear regarding who was
     CNIC incorrectly      responsible for compliance. The ASN (FM&C) and CNIC did
        interpreted        not develop procedures to perform post-payment reviews to
    information about      identify improper payments or report improper payments when
  who was responsible the Navy established the Naples CBPO. In addition, the
   for identifying and     ASN (FM&C) and the DFAS Indianapolis BAM program
   reporting improper      manager did not establish roles and responsibilities for
         payments.         accessing and using the BAM tool on One Pay payments
                           processed at the Naples CBPO. The Naples CBPO is the only
Navy site that enters invoices into One Pay without DFAS intervention. ASN (FM&C)
and CNIC incorrectly interpreted information about who was responsible for identifying
and reporting improper payments processed through One Pay at the Naples CBPO.
Specifically, ASN (FM&C) and CNIC assumed no responsibility for identifying and
reporting improper payments processed through One Pay.

Impact of Noncompliance With Improper Payment
Reporting Requirements
As a result of unidentified and unreported improper payments, the improper payment
reports for the Navy and DoD have been understated. Navy and DoD management did
not have an accurate reporting of the improper payments made through the One Pay




1
  Collection voucher logs are disbursing accountability reports prepared by the Activity to record payments
the Navy needed to collect. Payments to be recorded include reimbursements from Navy personnel,
overpayments, and electronic funds transfer cancellations.


                                                     4
system. By not identifying or reporting improper payments, the Navy did not comply
with IPERA and DoD FMR reporting requirements.

The Navy does not know how many improper payments were processed by the Naples
CBPO through One Pay since it reached its current operating structure in 2009. We
reviewed a nonstatistical sample of 25 payments valued at $2.5 million processed through
One Pay from July 1, 2011 through June 30, 2012, that were reported on the collection
log or identified by the BAM tool as potential improper payments. We identified
five unreported improper payments, valued at $158,602. Specifically:
        • Three improper payments totaling $152,399 were made through electronic
            funds transfer and sat in suspense at foreign banks due to incorrect bank
            routing or account numbers.
        • Two improper overpayments totaling $6,203 were the result of a contract
            modification and an input error.

The Naples CBPO took appropriate action to collect the $158,602 of improper payments.
The ASN (FM&C) should perform risk assessments and update guidance to include
IPERA and DoD FMR requirements and to clearly establish which organizations, offices
and personnel are responsible for identifying and reporting improper payments. In
addition, the ASN (FM&C) and CNIC should develop and implement procedures to
identify and report improper payments in accordance with reporting requirements.

Because the Navy did not review the potential improper payments identified by the BAM
tool, the risk of additional unreported improper payments is increased. As a result of this
audit, personnel from the DFAS Indianapolis BAM Program Management Office
contacted the Naples CBPO and are working to provide access to the BAM tool. The
Navy should work with the DFAS Operations Office to establish roles and a process for
the Naples CBPO to receive the BAM data from DFAS and research the potential
improper payments. The Navy should review the more than 2,000 payments identified
by BAM between July 1, 2011 and June 30, 2012. The Naples CBPO office should also
use the BAM tool to help identify and report improper payments made before
July 1, 2011 and after June 30, 2012 to the present and initiate collection action as
necessary.




                                             5
Recommendations
We recommend the Assistant Secretary of the Navy (Financial Management
and Comptroller):

       1. update guidance that clarifies the organizations, offices and personnel
          responsible for processing payments in One Pay and are further responsible
          for identifying and reporting improper payments input by the Naples
          Commercial Bill Pay Office in accordance with DoD Financial Management
          Regulation volume 4, “Accounting Policies and Procedures,” chapter 14,
          “Improper Payments,” October 2011;

       2. develop and implement procedures at the Naples Commercial Bill Pay Office
          for performing reviews, identifying, and reporting improper payments to
          comply with DoD Financial Management Regulation volume 4, “Accounting
          Policies and Procedures,” chapter 14, “Improper Payments,” October 2011,
          and identify areas in which controls can be strengthened;

       3. in conjunction with the Director, Defense Finance and Accounting Service
          Operations develop roles and responsibilities for Naples Commercial Bill Pay
          Office to access and review potential improper payments identified by the
          Business Activity Monitoring tool; and

       4. initiate a review of the potential improper payments identified by the Business
          Activity Monitoring tool from 2009 to the present to identify if other improper
          payments were made by the Naples Commercial Bill Pay Office and initiate
          appropriate corrective actions if improper payments are found.

Management Comments Required
The Assistant Secretary of the Navy (Financial Management and Comptroller), provided
unofficial comments to the draft report, which could not be considered or included in the
final report.

The Defense Finance and Accounting Service Director, Enterprise Solutions and
Standards, responding for the Director of Operations, Defense Finance and Accounting
Service, provided unofficial comments to the draft report, which could not be considered
or included in the final report.

We request the Assistant Secretary of the Navy (Financial Management and Comptroller)
and the Director of Operations, Defense Finance and Accounting Service, provide formal
comments to the final report.




                                            6
Appendix. Scope and Methodology
We conducted this performance audit from August 2012 through March 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

One Pay Payments
To determine whether the Naples CBPO identified and reported improper payments
processed through One Pay, we collected information from an internal control
questionnaire and interviews with personnel. Additionally, we reviewed public laws and
DoD policies for identifying and reporting improper payments and Navy standard
operating procedures for processing payments. We confirmed with ASN (FM&C) and
DFAS personnel that the Naples CBPO was the only Navy site entering and processing
payments in One Pay.

We requested One Pay data from DFAS to determine how many payments were
processed at the Naples CBPO, and we reviewed the invoice data. DFAS provided a
universe of 18,688 payments, valued at $712,737,822.22, to vendors processed by Naples
CBPO through One Pay between July 1, 2011 and June 30, 2012. The text file provided
by DFAS included all payments during this period for the five sites for which CBPO
processed payments: Naples, London, Djibouti, Rota, and Bahrain. We imported the data
from the text file into an Excel file and confirmed the data totals with the DFAS.
Additionally, we confirmed the universe totals with Naples CBPO personnel.

After we determined no improper payments were identified or reported by the Naples
CBPO, we determined whether any improper payments were made. To do this, we
selected a nonstatistical sample of payments reported on the collection log or identified
by the BAM tool as potential improper payments to compare with supporting
documentation. We reviewed the collection voucher logs provided by Naples CBPO for
common characteristics of improper payments. For example, we looked for log entries
marked “overpayment” and “electronic funds transfer cancellation.” We then selected
eight payments recorded on the collection voucher logs, based on professional judgment.
Additionally, we reviewed the BAM exception lists of over 2,000 potential improper
payments and selected 9 unique payments with the characteristics of duplicate payments.
We identified 10 payments that contained matching document numbers, procurement-
instrument-identification numbers, supplementary-instrument-identification numbers,
invoice numbers, and amounts certified for payment; these matched the 9 previously
selected potential duplicate improper payments, for a total of 19 payments. We requested
supporting documentation for 8 payments from the collection log plus 19 payments from
BAM, for a total of 27 potential improper payments. One payment was identified on
both the collection voucher logs and the BAM exception lists, and another payment, upon
review of the supporting documentation, was not processed through One Pay. As a



                                            7
result, our sample consisted of 25 unique potential improper payments, of which we
found 5 to be improper.

Use of Computer-Processed Data
We obtained computer-processed data from DFAS, extracted from One Pay, a subsystem
of the Standard Accounting and Reporting System. We did not evaluate the reliability of
One Pay data, because we used the data primarily to support background and contextual
information; the data did not materially affect findings. However, we confirmed the data
totals with the DFAS One Pay system manager and Naples CBPO personnel; reviewed
existing information about the system and its data; and interviewed agency officials
knowledgeable about the data.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD IG
have issued five reports discussing identifying and reporting improper payments.
Unrestricted GAO reports can be accessed at www.gao.gov. Unrestricted DoD IG
reports can be accessed at www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-99-442, “Improper Payments: Significant Improvements Needed
in DoD's Efforts to Address Improper Payment and Recovery Audit Requirements,"
July 29, 2009

DoD IG
DoD IG Report No. D-2012-130, “DFAS Controls over Duplicate Payments in One Pay
Were Generally Effective, But There Were Opportunities for Improvement,”
September 14, 2012

DoD IG Report No. D-2012-065, “DoD Compliance With the Requirements of the
Improper Payments Elimination and Recovery Act,” March 15, 2012

DoD IG Report No. D-2011-050, “DoD Needs to Improve High Dollar Overpayment
Review and Reporting,” March 16, 2011

DoD IG Report No. D-2008-096, “Identification and Reporting of Improper Payments by
the Defense Logistics Agency,” May 20, 2008




                                           8
